No. 20-1312

 

IN THE

Supreme Court of the United States

XAVIER BECERRA, SECRETARY OF HEALTH AND HUMAN
SERVICES,

Petitioner,
v.
EMPIRE HEALTH FOUNDATION, FOR VALLEY HOSPITAL
MEDICAL CENTER,
Respondent.

On Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit

BRIEF OF AMICUS CURIAE
AMERICANS FOR PROSPERITY FOUNDATION
IN SUPPORT OF NEITHER PARTY

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

4,764 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on September 8, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
